COCKLE

2311 Douglas Street : E-Mail Address;
Omaha, Nebraska 68102-1214 Legal B tr e fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-446

VF JEANS WEAR, LP,
Petitioner,
v.
U.S. EQUAL EMPLOYMENT
OPPORTUNITY COMMISSION,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2995 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 20th day of January, 2020.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
General Notary . & Chk
re, 5 Ziilte Qudeowhe

Notary Public Affiant 39336

My Commission Expires Nov 24, 2020

 
